<html>
<title> - ANNUAL OPEN HEARING ON CURRENT AND PROJECTED NATIONAL SECURITY THREATS TO THE UNITED STATES</title>
<body><pre>[Senate Hearing 113-600]
[From the U.S. Government Publishing Office]






                
                                                        S. Hrg. 113-600
 
                     ANNUAL OPEN HEARING ON CURRENT
      AND PROJECTED NATIONAL SECURITY THREATS TO THE UNITED STATES

=======================================================================

                                HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                                 OF THE

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                      WEDNESDAY, JANUARY 29, 2014

                               __________

      Printed for the use of the Select Committee on Intelligence
      
      
      
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
      
      


         Available via the World Wide Web: http://www.fdsys.gov
         
         
         
         
         
                                       ____________      
  
                              U.S. GOVERNMENT PUBLISHING OFFICE
                              
   93-211 PDF                         WASHINGTON : 2015             


_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001
       
         
         
         
         
         
                    SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]

                 DIANNE FEINSTEIN, California, Chairman
                SAXBY CHAMBLISS, Georgia, Vice Chairman

JOHN D. ROCKEFELLER IV, West         RICHARD BURR, North Carolina
    Virginia                         JAMES E. RISCH, Idaho
RON WYDEN, Oregon                    DANIEL COATS, Indiana
BARBARA A. MIKULSKI, Maryland        MARCO RUBIO, Florida
MARK UDALL, Colorado                 SUSAN COLLINS, Maine
MARK WARNER, Virginia                TOM COBURN, Oklahoma
MARTIN HEINRICH, New Mexico
ANGUS KING, Maine
                     HARRY REID, Nevada, Ex Officio
                 MITCH McCONNELL, Kentucky, Ex Officio
                    CARL LEVIN, Michigan, Ex Officio
                    JOHN McCAIN, Arizona, Ex Officio
                              ----------                              
                     David Grannis, Staff Director
            Martha Scott Poindexter, Minority Staff Director
                  Desiree Thompson-Sayle, Chief Clerk
                  
                  
                  
                                  
                  
                  
                  
                  
                                CONTENTS

                              ----------                              

                            JANUARY 29, 2014

                           OPENING STATEMENTS

Feinstein, Hon. Dianne, Chairman, a U.S. Senator from California.     1
Chambliss, Hon. Saxby, Vice Chairman, a U.S. Senator from Georgia     3

                                WITNESS

James R. Clapper, Director of National Intelligence, Accompanied 
  by: John O. Brennan, Director, Central Intelligence AgencyJames 
  B. Comey, Jr., Director, Federal Bureau of Investigation, Lt. 
  General Michael T. Flynn, Director, Defense Intelligence 
  Agency, and Matthew G. Olsen, Director, National 
  Counterterrorism Center........................................     4
    Prepared statement...........................................     8

                         SUPPLEMENTAL MATERIAL

Letter dated February 3, 2014, from Mr. Brennan to Senator Wyden 
  regarding applicability of 18 U.S.C. 1030 to the CIA...........    64


                     ANNUAL OPEN HEARING ON CURRENT



      AND PROJECTED NATIONAL SECURITY THREATS TO THE UNITED STATES

                              ----------                              


                      WEDNESDAY, JANUARY 29, 2014

                                       U.S. Senate,
                          Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:00 a.m., in 
Room SH-216, Hart Senate Office Building, the Honorable Dianne 
Feinstein (Chairman of the Committee) presiding.
    Committee Members Present: Senators Feinstein, Chambliss, 
Rockefeller, Wyden, Mikulski, Udall (of Colorado), Warner, 
Heinrich, King, Burr, Risch, Collins, and Rubio.

 OPENING STATEMENT OF HON. DIANNE FEINSTEIN, CHAIRMAN, A U.S. 
                    SENATOR FROM CALIFORNIA

    Chairman Feinstein. The meeting will come to order.
    Let me say at the outset that we hold this hearing to 
provide information to the public on the intelligence 
community's assessments of threats facing our nation. I ask 
that everyone in this room remove any signs you may have and 
refrain from any disruptions during the hearing so that the 
Committee can conduct the hearing and people sitting behind you 
can see. I will ask the Capitol Police to remove anyone who 
disrupts this proceeding.
    This Committee meets today in open session to hear the 
annual report from the United States Intelligence Community on 
the range of threats to the nation's security. And let me start 
by welcoming the witnesses. They are the Director of National 
Intelligence James Clapper, the Director of the Central 
Intelligence Agency John Brennan, the Director of the Federal 
Bureau of Investigation Jim Comey, the Director of the Defense 
Intelligence Agency Lieutenant General Michael Flynn, and the 
Director of the National Counterterrorism Center Matt Olsen.
    Every year at this hearing, Members and intelligence 
officials alike talk about how the threats to the United States 
are more varied and complex than ever before, and this year is 
no exception. Rather than listing all the sources of 
instability and proliferation of weapons capable of causing 
physical and computer damage, I'd like to focus my opening 
remarks on the threat posed by terrorism.
    Thanks in large part to the efforts of the women and men of 
the Intelligence Community, there have been no terrorist 
attacks against--in the United States Homeland since our last 
threat hearing and numerous plots against United States 
interests overseas have been prevented. I'm concerned that this 
success has led to a popular misconception that the threat has 
diminished. It has not.
    The presence of terrorist groups, including those formerly 
affiliated with al-Qaeda and others, has spread over the past 
year. While the threat emanating from Pakistan's tribal areas 
has diminished due to persistent counterterrorism operations, 
the threat from other areas has increased. In fact, terrorism 
is at an all-time high worldwide.
    If you include attacks by groups like the Taliban against 
the United States military and our coalition forces, according 
to the National Consortium for the Study of Terrorism and 
Response to Terrorism, at the University of Maryland, which is 
the source for the State Department's official tallies, there 
were more than 8,400 terrorist attacks, killing 15,400 people 
in 2012.
    The instability that spread through North Africa and the 
Middle East during the Arab Spring has continued to lead to an 
increase in the terrorist presence and terrorist safe havens 
throughout the region.
    Libya, Egypt and Mali continue to see regular violence. 
Recent terrorist attacks, and controlled--control now parts of 
western Iraq are of great concern.
    While governments in Yemen and Somalia have improved, two 
of the most dangerous terrorist groups continue to find safe 
havens in these countries where they remain virulent.
    al-Qaeda in the Arabian Peninsula, known to us as AQAP, 
remains intent on attacking the United States. And al-Shaabab, 
which publicly merged with al-Qaeda in February of 2012, 
continues to plot against western targets in East Africa.
    But I think the most notable development since last year's 
hearing is actually in Syria, which has become a magnet for 
foreign fighters and for terrorist activity.
    The situation has become so dire that even al-Qaeda's 
central leader, Ayman al-Zawahiri, has announced the activities 
of one group as being too extreme to countenance.
    Because large swathes of the country of Syria are beyond 
the regime's control, or that of the moderate opposition, this 
leads to the major concern of the establishment of safe haven, 
and the real prospect that Syria could become a launching point 
or way station for terrorists seeking to attack the United 
States or other nations.
    Not only are fighters being drawn to Syria, but so are 
technologies and techniques that pose particular problems to 
our defenses.
    I think I am also concerned about Afghanistan and the 
drawdown of U.S. and ISAF forces. The Committee has heard the 
intelligence community's assessment of the likely outcomes for 
the future of Afghanistan, especially if the bilateral security 
agreement is not signed, and the United States is unable to 
commit significant personnel and resources beyond 2014.
    I am particularly concerned that the Afghan government will 
not be able to prevent the return of al-Qaeda elements to some 
parts of the country, and that the Taliban's control over 
Afghan territory will grow.
    The vice chairman and I were in Afghanistan in 2012, and he 
has just returned. I saw schoolgirls walking home with their 
white headdress and brilliant smiles on their faces on the 
streets of Kabul. And I also met women serving in the Afghan 
parliament. I saw their courage and devotion to their country.
    And I am deeply concerned that in the years following 2014, 
if President Karzai or someone else doesn't sign the bilateral 
security agreement, all the gains for democracy, for women's 
rights will evaporate.
    I'm going to skip some of this and put it in the record.
    As your testimony, gentlemen, makes clear today, there are 
numerous confounding and complicated threats out there that 
need devoted attention. And the Intelligence Community, with 
sequester and furloughs, has been through a very difficult 
time.
    And I'd very much like to thank the men and women of the 
United States Intelligence Community for their service to this 
country. It is very much appreciated by this Committee.
    I'd also like to note to colleagues that Director Clapper 
came before us in closed session two weeks ago and went through 
a series of classified matters. And we discussed what the I.C. 
is doing about them. He and other witnesses are available to 
answer classified questions in closed sessions. But the point 
of today's hearing is to focus on the unclassified details of 
the threats we face, and to provide the American people with a 
better sense of how our Intelligence Community views them.
    Mr. Vice Chairman.

  OPENING STATEMENT OF HON. SAXBY CHAMBLISS, VICE CHAIRMAN, A 
                   U.S. SENATOR FROM GEORGIA

    Vice Chairman Chambliss. Thanks very much, Madam Chair, and 
I join you in welcoming all our witnesses back to this open 
hearing this morning.
    This has been an especially difficult year for the men and 
women in the Intelligence Community. The constant stream of 
press articles as a result of the largest intentional 
disclosure of classified information has, without a doubt, 
compromised our national security and complicated our foreign 
partnerships.
    As Director Olsen recently acknowledged, these disclosures 
have caused terrorist groups to change their communication 
methods and in other cases drop out of our collection 
altogether.
    But there's another piece to these leaks that each one of 
you is seeing on a daily basis. The inaccuracies and 
insinuations about intelligence activities that are in place to 
protect this country are especially frustrating and 
demoralizing to the men and women on the front lines.
    This Committee knows from our oversight that the 
Intelligence Community takes very seriously its obligation to 
preserve the rights and privacy of Americans.
    Director Clapper, I implore you to convey our thanks and 
appreciation to the entire Intelligence Community and those men 
and women that serve under each and every one of you.
    Senator Burr and I recently returned from a trip to Jordan 
and Afghanistan, where we met some of the men and women of our 
military and our Intelligence Community. Many of them are 
serving in isolated units in very dangerous parts of 
Afghanistan, and are conducting very dangerous but very 
important missions.
    In our meetings it became very clear that we cannot let 
Afghanistan suffer the same fate as Iraq. We must not withdraw 
from the fight before we finish what we went there to do.
    Recent press articles suggest that we may leave behind a 
force of 8,000 to 12,000 American military personnel, which 
would likely require continued support from the Intelligence 
Community.
    We've come a long way denying a safe haven to al-Qaeda and 
building up the security forces of our Afghan partners. But we 
must not commit the same mistake of losing what the President 
termed a must-win war.
    Assuming we have a signed bilateral security agreement, we 
must ensure that Afghanistan has adequate support and military 
assistance to ensure that it doesn't quickly go the way of 
Iraq.
    As we continue to pressure core al-Qaeda, the growth of 
local and regional affiliates remains a big concern.
    The reason we went into Afghanistan in the first place was 
to remove the safe haven that, if the Taliban--and the Taliban 
provided to al-Qaeda, yet the instability, in the Middle East 
and North Africa seems to be fueling a new breeding ground for 
terrorism, especially in places like Syria.
    As we fight these changing terrorist threats, we must not 
lose sight of the national security challenges caused by our 
nation's state adversaries, and regional instability.
    As we look to the Intelligence Community to give us a clear 
reading on what is happening now, we also expect that you will 
look over the horizon to tell us about the impending threats.
    In this context, recent discussions to limit your abilities 
to gather information are troubling. And I'd like an honest 
assessment from each of you the potential impact of each of 
these decisions.
    We have to make sure that the Community can effectively 
provide warning and protection for all of this country's 
national security interests now and in the future.
    It is the joint responsibility of Congress and the 
administration to ensure that we prioritize our efforts 
appropriately, state and nonstate cyber actors, international 
and home-grown terrorists, and an ever-evolving list of 
aggressors, proliferators and criminals will continue to try to 
do us harm.
    At any given time the Intelligence Community has to know 
which of these threats presents the greatest potential harm. I 
look forward to hearing the details of what those threats are, 
what is being done to address them, and how we, as your 
partners in this effort, can assist.
    Thanks, Madam Chair.
    Chairman Feinstein. And I thank you, Mr. Vice Chairman.
    I'd like to announce to the Committee that last night we 
announced that the early bird rules would prevail today.
    I want to welcome the panel. And Director Clapper, it's my 
understanding you have a joint statement for the four gentlemen 
and yourself. Please proceed.

      STATEMENT OF JAMES R. CLAPPER, DIRECTOR OF NATIONAL 
              INTELLIGENCE, ON BEHALF OF THE PANEL

    Director Clapper. Madam Chairman, Vice Chairman, panelists 
and distinguished Members of the Committee, my colleagues and I 
here today present the intelligence community's worldwide 
threat assessment as we do every year. I'll cover five topics 
in about eight minutes on behalf of all of us.
    As DNI, this is my fourth appearance before the Committee 
to discuss the threats we face. I've made this next assertion 
previously, but it is, if anything, even more evident and 
relevant today.
    Looking back over my more than half a century in 
intelligence I have not experienced a time when we've been 
beset by more crises and threats around the globe. My list is 
long.
    It includes the scourge and diversification of terrorism, 
loosely connected and now globally dispersed to include here at 
home as exemplified by the Boston Marathon bombing; the 
sectarian war in Syria, its attraction as a growing center of 
radical extremism and the potential threat this poses to the 
Homeland; the spillover of conflict in the neighboring Lebanon 
and Iraq; the destabilizing flood of refugees in Jordan, Turkey 
and Lebanon; the implications of the drawdown in Afghanistan; 
the deteriorating internal security posture in Iraq; the growth 
of foreign cyber capabilities; the proliferation of weapons of 
mass destruction, aggressive nation state intelligence efforts 
against us; an assertive Russia, a competitive China, a 
dangerous, unpredictable North Korea, a challenging Iran, 
lingering ethnic divisions in the Balkans, perpetual conflict 
and extremism in Africa, violent political struggles, and among 
others the Ukraine, Burma, Thailand and Bangladesh; the specter 
of mass atrocities, the increasing stress of burgeoning 
populations, the urgent demands for energy, water and food, the 
increasing sophistication of transnational crime, the tragedy 
and magnitude of human trafficking, the insidious rot of 
inventive synthetic drugs, the potential for pandemic disease 
occasioned by the growth of drug-resistant bacteria.
    I could go on with this litany but suffice to say we live 
in a complex, dangerous world. And the statements for the 
record that we've submitted, particularly the classified 
version, provide a comprehensive review of these and other 
daunting challenges.
    My second topic is what has consumed extraordinary time and 
energy for much of the past year in the Intelligence Community 
and the Congress and the White House, and, of course, in the 
public square.
    I'm speaking, of course, about the most massive and most 
damaging theft of intelligence information in our history by 
Edward Snowden and the ensuing avalanche of revelations 
published and broadcast around the world.
    I won't dwell on the debate about Snowden's motives or 
legal standing, or on the supreme ironies associated with his 
choice of freedom-loving nations and beacons of free expression 
from which to rail about what an Orwellian state he thinks this 
country has become.
    But what I do want to speak to as the nation's senior 
intelligence officer is the profound damage that his 
disclosures have caused and continue to cause. As a 
consequence, the nation is less safe and its people less 
secure.
    What Snowden has stolen and exposed has gone way, way 
beyond his professed concerns with so-called domestic 
surveillance programs. As a result, we've lost critical foreign 
intelligence collection sources, including some shared with us 
by valued partners.
    Terrorists and other adversaries of this country are going 
to school on U.S. intelligence sources' methods and trade craft 
and the insights that they are gaining are making our job much, 
much harder.
    And this includes putting the lives of members or assets of 
the Intelligence Community at risk, as well as our armed 
forces, diplomats, and our citizens. We're beginning to see 
changes in the communications behavior of adversaries, which 
you alluded to, particularly terrorists, a disturbing trend 
which I anticipate will continue.
    Snowden claims that he's won and that his mission is 
accomplished. If that is so, I call on him and his accomplices 
to facilitate the return of the remaining stolen documents that 
have not yet been exposed to prevent even more damage to U.S. 
security.
    As a third related point I want to comment on the ensuing 
fallout. It pains me greatly that the National Security Agency 
and its magnificent workforce have been pilloried in public 
commentary.
    I started in the intelligence profession 50 years ago in 
SIGINT, and members of my family and I have worked at NSA, so 
this is deeply personal to me. The real facts are, as the 
President noted in his speech on the 17th, that the men and 
women who work at NSA, both military and civilian, have done 
their utmost to protect this country and do so in a lawful 
manner.
    As I and other leaders in the Community have said many 
times, NSA's job is not to target the e-mails and phone calls 
of U.S. citizens. The agency does collect foreign intelligence, 
the whole reason an NSA has existed since 1952, performing 
critical missions that I'm sure the American people want it to 
carry out.
    Moreover, the effects of the unauthorized disclosures hurt 
the entire Intelligence Community, not just NSA. Critical 
intelligence capabilities in which the United States has 
invested billions of dollars are at risk, or likely to be 
curtailed or eliminated either because of compromise or 
conscious decision.
    Moreover, the impact of the losses caused by the 
disclosures will be amplified by the substantial budget 
reductions we're incurring. The stark consequences of this 
perfect storm are plainly evident. The Intelligence Community 
is going to have less capacity to protect our nation, and its 
allies, than we've had.
    And this connection I'm also compelled to note the negative 
morale impact this perfect storm has had on the I.C. workforce 
which are compounded by sequestration furloughs, the shutdown, 
and salary freezes. And in that regard, I very much 
appreciate--we all do--your tributes to the women and men of 
the Intelligence Community. And we will certainly convey that 
to all of them.
    This leads me to my fourth point. We are thus faced with 
collectively--and by collectively I mean this Committee, the 
Congress at large, the executive branch, and most acutely, all 
of us in the Intelligence Community--is the inescapable 
imperative to accept more risk. It's a plain hard fact, and a 
circumstance the Community must, and will manage, together with 
you and those we support in the executive branch.
    But, if dealing with reduced capacities is what we need to 
ensure the faith and confidence of the American people and 
their elected representatives, then we in the Intelligence 
Community will work as hard as we can to meet the expectations 
before us.
    And that brings me to my fifth and final point. The major 
take away for us, certainly for me, from the past several 
months is that we must lean in the direction of transparency, 
wherever and whenever we can. With greater transparency about 
these intelligence programs, the American people may be more 
likely to accept them. The President set the tone and direction 
for us in his speech, as well as in his landmark presidential 
policy directive, a major hallmark of which is transparency.
    I have specific tasking, in conjunction with the Attorney 
General, to conduct further declassification to develop 
additional protections under Section 702 of the FISA Act, to 
modify how we develop bulk collection of telephone metadata 
under Section 215 of the Patriot Act and to ensure more 
oversight of sensitive collection activities. And clearly we'll 
need your support in making these changes.
    Through all of this, we must and will sustain our 
professional trade craft and integrity. And we must continue to 
protect our crown jewel sources and methods so that we can 
accomplish what we've always been chartered to do, protect the 
lives of American citizens here and abroad from the myriad 
threats I described at the beginning of this statement.
    With that, I'll conclude and we're ready to address your 
questions.
    [The prepared statement of Mr. Clapper follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
 
    
    Chairman Feinstein. Thank you very much Director Clapper, 
and thank you for being so up front.
    I wanted to ask you one question about Syria, and then Mr. 
Olsen, a question about Sochi.
    Your written statement for the record I believe states, 
Director Clapper, that Syria has become a significant location 
for independent or al-Qaeda aligned groups to recruit, train 
and equip a growing number of extremists, some of whom might 
conduct external attacks.
    Could you respond to this, and how concerned should we be 
also about Europeans or even Americans training in Syria and 
traveling back to the West to carry out attacks?
    Director Clapper. Well we should be very concerned about 
this, Senator Feinstein. Syria has become a huge magnet for 
extremists.
    First those groups who are engaged in Syria itself, some 
1,600 different groups. We estimate somewhere in the 
neighborhood of between 75,000 and 110,000, of which about 
26,000 we grade as extremists. We estimate, at this point, an 
excess of 7,000 foreign fighters have been attracted from some 
50 countries, many of them in Europe and the Mideast.
    And this is of great concern not only to us, but to those 
countries.
    And our recent engagements with our foreign interlocutors, 
and particularly in Europe, tremendous concern here for those 
extremists who are attracted to Syria, engage in combat, get 
training, and we're seeing now the appearance of training 
complexes in Syria to train people to go back to their 
countries, and, of course, conduct more terrorist acts.
    So this is a huge concern to all of us.
    Chairman Feinstein. Thank you very much. Mr. Olsen, on 
Sochi, I'd like to know what your assessment is of the threat 
to the Olympic Games and whether you believe our athletes will 
be safe.
    And I'd like Director Comey to respond to the level of 
cooperation between the Russians, and the FBI, with respect to 
security at the Olympic Games.
    Mr. Olsen.
    Director Olsen. Yes, thank you very much, Madam Chairman 
and Vice Chairman.
    Let me just say at the outset, I appreciate your 
leadership, and in particular your focus on terrorism, and 
leadership of the entire Committee.
    And if I may say just as well, I fully agree with Director 
Clapper's assessment of the situation in Syria. And as you laid 
out in your opening statement, the combination of a permissive 
environment, extremist groups like Al Nusra and the number of 
foreign fighters combine to make Syria a place that we are very 
concerned about, in particular the potential for terrorist 
attacks emanating from Syria to the West.
    Now, with respect to your question about Sochi, we are very 
focused on the Sochi Olympics and we have seen an up-tick in 
the threat reporting regarding Sochi. And this is what we 
expected given where the Olympics are located.
    There are a number of extremists in that area and in 
particular, a group, Emirate Caucasus, which is probably the 
most prominent terrorist group in Russia.
    The leader of the group, last July, announced in a public 
message that the group would intend to carry out attacks in 
Sochi in connection with the Olympics. And we've seen a number 
of attacks stemming from last fall's suicide bombings in 
Volgograd that took a number of lives.
    So we're very focused on the problem of terrorism in the 
run-up to the Olympics. I would add that I traveled to Sochi 
last December, and met with Russian security officials. They 
understand the threat. They are very focused on this, and 
devoting substantial resources.
    The biggest issue from my perspective is not the games 
themselves, the venues themselves. There's extensive security 
at those locations, the sites of the events. The greater threat 
is to softer targets in the greater Sochi area, and in the 
outskirts beyond Sochi, where there is a substantial potential 
for a terrorist attack.
    Chairman Feinstein. Thank you very much.
    Mr. Comey, would you tell us what you can about cooperation 
between Russia and your organization?
    Director Comey. Certainly. Senator, the cooperation between 
the FSB and the FBI in particular has been steadily improving 
over the last year. We've had exchanges at all levels, 
particularly in connection with Sochi, including me directly to 
my counterpart at FSB. And I think that we have a good level of 
cooperation there.
    It can always improve. We're looking for ways to improve 
it, as are they. But this, as Director Olsen said, remains a 
big focus of the FBI.
    Chairman Feinstein. Thank you.
    Mr. Vice Chairman.
    Vice Chairman Chambliss. Thanks, Madam Chair.
    Director Clapper, you assess in your statement for the 
record that core al-Qaeda has been on a downward trajectory 
since 2008, and that their ability to conduct complex, 
sophisticated, and large-scale attacks against the Homeland is 
significantly degraded.
    However, at the same time, you assess that AQAP poses a 
significant threat and remains intent on targeting the United 
States and U.S. interests overseas. What I'd like to do is to 
have you first start off Director Clapper, but I want kind of a 
general discussion about al-Qaeda, not just core al-Qaeda, but 
their threat to the United States, both domestically as well as 
overseas.
    And each of you have kind of a different interest there. 
Even down to you, Director Comey, obviously with respect to 
homegrown terrorists, and the future there. So these are kind 
of the questions I'd like for you to address.
    One, how would you characterize the probability of an al-
Qaeda-sponsored or -inspired attack against U.S. Homeland 
today, as compared to 2001?
    If al-Qaeda is evolving from a centralized core group to a 
decentralized global movement of multiple organizations, 
capable of attacking the United States, would you say the 
threat has decreased or increased?
    Third has the terrorist threat against the U.S. interests 
overseas increased or diminished over the past decade?
    And then lastly, what--what is the impact on limitations 
that are proposed on Sections 215 and 702 likely to have on the 
future of the Intelligence Community with regard to collection.
    Vice Chairman Chambliss. Director Clapper.
    Director Clapper. Thank you, Vice Chairman Chambliss.
    Let me start, and then I'll turn to others.
    I think--in fact NCTC probably said it best recently that 
the--one of--the ideological center of al-Qaeda movement I 
think still remains in the FATA. The operational locus and the 
locus for operational planning has dispersed. There are some 
five different franchises at least, and in 12 countries that 
this movement has morphed into. And we see sort of chapters of 
it, of course, in Yemen, Somalia, in North Africa, in Syria, et 
cetera.
    And many of these movements, while essentially locally 
focused, probably the most--still, I think, the most prominent 
one that has an external focus and specifically on the Homeland 
remains AQAP, which I think we--we still continue to view as, 
of all the franchises, the one that has the most--poses the 
most immediate threat to--for a potential attack on the 
Homeland.
    The probability of attack now compared to 2001 is, at least 
for me, a very hard question to answer because--principally 
because of this very dispersion and diffusion of the threat. 
Whereas we were very, very focused initially, particularly in 
that--in that time period on al-Qaeda, al-Qaeda core. Now, we 
are facing a much more dispersed threat.
    The--what we spoke about before in Syria, what's going on 
there is in maybe some respects a new FATA for us. And the--and 
what's going on there and the attraction of these foreign 
fighters is very, very worrisome. Aspirationally, al-Nusra 
Front, to name one, is--does have aspirations for attacks on 
the Homeland.
    So, I can't say that--that, you know, the threat is any 
less. I--I think our ability to discern it is much improved 
over what it was in the--in the early part of--the 2000 period. 
So, I think that dispersion and decentralization actually 
creates a different threat and a harder one to watch and detect 
because of its dispersion.
    It's clear as well that our collection capabilities are not 
as robust, perhaps, as they were because the terrorists--and 
this is not specifically because of the Snowden revelations--
but generally have gotten smarter about how we go about our 
business and how we use trade-craft to detect them and to 
thwart them.
    As far as what impacts the changes that will accrue, 
hopefully we can, particularly with respect to 215 and the 
other tools that we have, we can minimize the threat by--as we 
make these modifications and alterations. But in general, this 
is big hand/little map, we are in total going to certainly have 
less capacity than we had in the past. And that's occasioned by 
the changes we're going to make, as well as, you know, the 
significant budget cuts we're taking.
    And those two things together, as I alluded to in my oral 
statement, kind of the perfect storm that we're going to--we're 
going to contend with. And the bottom line, at least for me, is 
that we're going to have to identify and--and be eyes wide 
open--I say ``we''--all of us--about identifying risk and 
managing it.
    Let me turn to my colleagues.
    John.
    Director Brennan. Just agree with General Clapper. The 
diversity and dispersion have made it much more challenging for 
us. We need to rely heavily on partners and building up 
capacity in a number of countries throughout the world.
    The terrorists are becoming more sophisticated and they're 
going to school on the repeated disclosures and leaks so that 
it has allowed them to burrow in--has made it much more 
difficult for us to find them and to address the threats that 
they pose.
    So, when I look at the threat relative to 9/11, we as a 
country have done I think a great job of addressing some of the 
vulnerabilities that exist in our system and putting together 
an information-sharing architecture that allows us to move 
information very quickly, but you never know what you don't 
know. And with the increasing diversity of the threat and with 
the growth, as you pointed out, of terrorist elements in places 
like Syria and Yemen, we have a number of fronts that we need 
to confront simultaneously.
    Chairman Feinstein. Thank you very much, Vice Chairman.
    Senator Heinrich.
    Senator Heinrich. Thank you, Chairman.
    Thank you all for joining us today, and I want to thank you 
for participating in this open hearing on worldwide threats. I 
know it's not always easy to talk about some of these things in 
an unclassified setting, but I certainly appreciate your 
willingness to try.
    I also want to publicly thank the men and women of the 
Intelligence Community who day-in and day-out dedicate 
themselves to keeping us all safe. It's a thankless job that a 
simple expression of gratitude can't fully capture, but we 
deeply appreciate their efforts.
    Before I get to my questions today, Mr. Brennan, I just 
want to publicly note my continued disappointment of how the 
CIA under your leadership has chosen to engage and interact 
with this Committee, especially as it relates to the 
Committee's study of the CIA's detention and interrogation 
program.
    Recent efforts undertaken by the CIA, including but not 
limited to inaccurate public statements about the Committee 
study, are meant to intimidate, deflect, and thwart legitimate 
oversight. It only makes me firmer in my conviction that the 
Committee should release and declassify the full 6,300-page 
study with minimal redactions so that the public can judge the 
facts for themselves.
    I want to applaud my colleague, Senator Rockefeller, for 
making significant efforts to bridge the chasm between the 
Committee and Director Brennan on some of these issues. But it 
doesn't appear to be in the director's nature to accept these 
overtures, frankly. And I think that's incredibly unfortunate. 
I am fully confident in the factual accuracy of the report and 
nothing in your response so far has persuaded me otherwise.
    Director Brennan, let me get to a few questions. On March 
16th, 2009, one of your predecessors, CIA Director Leon 
Panetta, announced the creation of a Director's Review Group 
for Rendition, Detention and Interrogation, to be led by a 
well-respected senior CIA officer and advised by Senator Warren 
Rudman, who passed away, as you know, in 2012.
    According to the press release at the time, the group was 
tasked with assembling data and formulating positions on the 
``complex, often controversial questions that define rendition, 
detention and interrogation.''
    Do you know when and why the Panetta review group was 
disbanded?
    Director Brennan. Senator, first of all, I respectfully but 
vehemently disagree with your characterization of the CIA's 
cooperation with this Committee. I am fully prepared to come 
forward to this Committee at any time that requests my 
appearance, to talk about that study.
    And I think, related to the issue that you just raised in 
terms of the question, all Committee Members are in receipt of 
some information that I have provided recently to the chairman 
and vice chairman on this issue. And I look forward to 
addressing these matters with the Committee at the appropriate 
time and not at a threat assessment--
    Chairman Feinstein. Thank you, Mr. Brennan. I believe 
that's appropriate.
    Senator Heinrich. Actually, it doesn't fully answer the 
question of whether--and I'm not sure that I do know actually 
when and why the Panetta review group was disbanded.
    Director Brennan [continuing]. I'll be happy to address 
that question at the time when the Committee leadership 
requests that information from me.
    Chairman Feinstein. Thank you. I think that's appropriate, 
Senator, for a classified session.
    Senator Heinrich. OK. Let me move on to Director Clapper 
and change gears a little bit to Edward Snowden. The 
revelations by Edward Snowden regarding U.S. intelligence 
collection have obviously caused some tensions with our 
European allies. Have our European allies ever collected 
intelligence against U.S. officials or business people, or 
those of other allied nations?
    Director Clapper. Yes, they have. I could go into more 
detail on that in a classified session.
    Senator Heinrich. That's fine, Director Clapper.
    Russia recently announced that it would extend Edward 
Snowden's asylum and not force him to leave their country. Do 
you believe that the Russians have gained access to the 
documents that Edward Snowden stole, which obviously--many of 
which have not been released publicly, fortunately?
    Director Clapper. I think this might be best left to a 
classified session and I don't want to do any--say or do 
anything that would jeopardize a current investigation.
    Senator Heinrich. That's fine, Director.
    Thank you, Chair.
    Chairman Feinstein. Senator Wyden.
    Senator Wyden. Thank you very much, Madam Chair.
    Let me start by saying that the men and women of America's 
intelligence agencies are overwhelmingly dedicated 
professionals and they deserve to have leadership that is 
trusted by the American people.
    Unfortunately, that trust has been seriously undermined by 
senior officials' reckless reliance on secret interpretations 
of the law and battered by years of misleading and deceptive 
statements senior officials made to the American people.
    These statements did not protect sources and methods that 
were useful in fighting terror. Instead, they hid bad policy 
choices and violations of the liberties of the American people.
    For example, the director of the NSA said publicly that the 
NSA doesn't hold data on U.S. citizens. That was obviously 
untrue.
    Justice Department officials testified that Section 215 of 
the PATRIOT Act is analogous to grand jury subpoena authority. 
And that deceptive statement was made on multiple occasions.
    Officials also suggested that the NSA doesn't have the 
authority to read Americans' e-mails without a warrant. But the 
FISA court opinions declassified last August showed that wasn't 
true either.
    So, for purposes of trying to move this dialogue along, 
because I don't think this culture of misinformation is going 
to be easily fixed, I'd like to get into several other areas 
where the government's interpretation of the law is still 
unclear.
    Director Clapper, law-abiding Americans want to protect the 
privacy of their communications, and I see a clear need to 
strengthen protections for informations--for information sent 
over the web or stored in the cloud.
    Declassified court documents show that in 2011, the NSA 
sought and obtained the authority to go through communications 
collected with respect to Section 702 of the Foreign 
Intelligence and Surveillance Act, and conduct warrantless 
searches for the communications of specific Americans.
    Can you tell us today whether any searches have ever been 
conducted?
    Director Clapper. Senator Wyden, I think at a threat 
hearing this would--I would prefer not to discuss this, and 
have this as a separate subject that--because there are very 
complex legal issues here that I just don't think this is the 
appropriate time to discuss them.
    Senator Wyden. When would that time be? I tried with 
written questions, Director Clapper, a year ago, to get 
answers. And we were stonewalled on that. And this Committee 
can't do oversight if we can't get direct answers.
    So when will you give the American people a unclassified 
answer to that question that relates directly to their privacy?
    Director Clapper. As soon as we can--soon, sir. I'll commit 
to that.
    Senator Wyden. What would be wrong with 30 days?
    Director Clapper. That's fine.
    Senator Wyden. All right. Thank you. That's making some 
progress.
    Director Brennan, a question with respect to policy. Does 
the federal Computer Fraud and Abuse Act apply to the CIA? 
Seems to me that's a yes-or-no question.
    Director Brennan. I would have to look into what that act 
actually calls for and its applicability to CIA's authorities. 
I'll be happy to get back to you, Senator, on that.
    Senator Wyden. How long would that take?
    Director Brennan. I'll be happy to get back to you as soon 
as possible. But certainly no longer than--
    Senator Wyden. A week?
    Director Brennan [continuing]. I think that I could get 
that back to you, yes.
    Senator Wyden. Very good.
    Let me ask a question of you, then, if I might, Director 
Comey. I'd like to ask you about the government's authority to 
track individuals using things like cell site location 
information and smartphone applications.
    Last fall, the NSA director testified that we, the NSA, 
identify a number we can give that to the FBI. When they get 
their probable cause, then they can get the locational 
information they need.
    I've been asking the NSA to publicly clarify these remarks, 
but it hasn't happened yet.
    So, is the FBI required to have probable cause in order to 
acquire Americans' cell site location information for 
intelligence purposes?
    Director Comey. I don't believe so, Senator. In almost all 
circumstances we have to obtain a court order, but the showing 
is a reasonable basis to believe it's relevant to the 
investigation.
    Senator Wyden. So you don't have to show probable cause, 
you have cited another standard. Is that standard different if 
the government is collecting the location information from a 
smartphone app rather than a cell phone tower?
    Director Comey. I don't think I know--I probably ought to 
ask someone who is a little smarter on what the standard is 
that governs those. I don't know the answer sitting here,
    Senator Wyden. My time is up. Can I have an answer to that 
within a week?
    Director Comey. You sure can.
    Senator Wyden. All right.
    Thank you, Madam Chair.
    Chairman Feinstein. Thank you, Senator Wyden.
    Senator Udall let me apologize to you, I inadvertently 
skipped over your name and called on Senator Wyden, but it's 
your moment.
    Senator Udall. No apologies, Madam Chair.
    Good morning to all of you. Thank you for being here.
    I, too, want to make it clear how much this Committee 
respects and admires the hardworking members of the 
Intelligence Community. And I know everyone on this Committee 
keeps this worldwide threat assessment handy.
    It's not reading that puts you to sleep; it's reading that 
gets your attention. I want to thank you and your teams for 
putting this together.
    I did want to pick up on Senator Heinrich's line of 
questioning.
    Director Brennan, you know the long history of this 
committee's study of our detention interrogation programs. I'd 
like to put my statement in the record that walks us through 
that--that record, but I did want to focus initially on the CIA 
internal review, some people call it the Panetta review.
    Were you aware of this CIA internal review when you 
provided the CIA's official response to this Committee in June 
of last year? I don't have much time, so I'd appreciate a yes-
or-no answer.
    Director Brennan. It wasn't a review, Senator, it was a 
summary. And at the time, no, I had not gone through it.
    Senator Udall. It strikes me as a bit improbable, given 
that you knew about the internal review, and you spoke to us 
and stated that your obligation as the CIA director was to make 
sure that the CIA's response was as thorough and accurate as 
possible.
    But, in that context, let me move to the next question, 
does the information in the internal review contradict any of 
the positions included in your June 2013 response to the 
Committee?
    Director Brennan. Senator, I'd respectfully like to say 
that I don't think this is the proper format for that 
discussion, because our responses to your report were in 
classified form. And I look forward to addressing these 
questions with the Committee at the appropriate time.
    Senator Udall. Let me make sure I understand. Are you 
saying that the CIA officers who were asked to produce this 
internal review got it wrong, just like you've said, the 
Committee got it wrong? We had 6,300 pages, 6 million 
documents, 35,000 footnotes.
    Director Brennan. Senator, as you well know, I didn't say 
that the Committee got it wrong. I said there were things in 
that report that I disagreed with, there were things in that 
report that I agreed with. And I look forward to working with 
the Committee on the next steps in that report.
    And I stand by my statement. I'm prepared to deal with the 
Committee to make sure that we're able to address the issue of 
the detention, rendition interrogation program at the 
appropriate time.
    Look forward to it.
    Senator Udall. Madam Chair, I still have two minutes 
remaining.
    Chairman Feinstein. You do; I beg your pardon.
    Senator Udall. Let me move to the Snowden disclosures and 
what I think has been clearly outlined as a trust deficit that 
exists between the public and the Intelligence Community.
    This Committee was created to address a severe breach of 
trust that developed. When it was revealed that the CIA was 
conducting unlawful domestic searches, the Church Committee 
went to work, found that to be true.
    I want to be able to reassure the American people, 
especially given what's been happening, that the CIA and the 
director understand the limits of their mission and of its 
authorities.
    We all are well aware of Executive Order 12333. That order 
prohibits the CIA from engaging in domestic spying and searches 
of U.S. citizens within our borders.
    Can you assure the Committee that the CIA does not conduct 
such domestic spying and searches?
    Director Brennan. I can assure the Committee that the CIA 
follows the letter and spirit of the law, in terms of what 
CIA's authorities are, in terms of its responsibilities to 
collect intelligence that keep this country safe. Yes, Senator, 
I do.
    Senator Udall. Let me--let me finish on this note; I think 
we have an important opportunity when it comes to this vital 
review that we undertook. We can set the record straight.
    America is at its best when we acknowledge our mistakes and 
learn from those mistakes.
    It's clear that the detention, rendition and interrogation 
programs of the CIA went over the line over last--during the 
first decade of this century.
    Director Brennan, I don't understand why we can't work 
together to clarify the record, to move forward. And, in so 
doing, acknowledge the tremendous work of those you lead, and 
those that were tasked on this Committee to oversee.
    I'm hopeful that we can find our way forward on this 
important, important act. Thank you.
    Director Brennan. I hope we can, too, Senator.
    Chairman Feinstein. Thank you, very much.
    I want to apologize to Senator Collins, because I didn't 
indicate initially that we would go back and forth. So the list 
is actually who got here first, but it's Senator Mikulski next, 
and then Senator Collins.
    Senator Mikulski. I would be happy to yield to Senator 
Collins.
    Senator Collins. The chairman of the Appropriations 
Committee always goes first.
    Chairman Feinstein. Senator, please proceed.
    Senator Mikulski. First of all, to those here on the panel 
and other members of agencies representing the Intelligence 
Community, like Homeland Security, I too, want to echo my 
thanks and support for all employees who work in the 
Intelligence Community.
    And General Clapper, I want to say to you, I recall in last 
year's hearing you asked for flexibility for the Intel 
Committee as we faced sequester. During this at times even 
intense hearing today, I want you to know that even the 
chairman and vice chairman supported by the entire Members of 
this Committee worked with me to try to get flexibility for 
you.
    We were stopped by the House of Representatives during the 
CR to get you that flexibility. But I want you to know today, 
we were united to try to get you, and therefore the 
Intelligence Community, that.
    So we're on the side of the employees facing furloughs, 
sequester, and so on. Thanks now to the budget agreement, and 
what we were able to do in the consolidated appropriations, we 
think that part is behind. So we look forward to working with 
you as we listen to those needs.
    I want to come, though, to the employees there. And no 
group of employees has been battered more than the men and 
women who work at the National Security Agency because of the 
illegal leaks by Edward Snowden. NSA has been battered, and by 
de facto, so have the employees of the National Security 
Agency.
    We're all well aware that the morale is extremely low there 
because of budget impacts and the impacts of Snowden.
    Let me go to my point, though. The men and women who work 
at the National Security Agency truly believe that what they 
do, particularly under 215 and 702, is constitutional, is 
legal, was authorized, and was necessary.
    So they felt they were doing a good job defending America. 
I would like to come to the constitutionality and engage your 
support and get your reviews.
    There are now several legal opinions about the 
constitutionality of these programs, and now, as we engage upon 
the reform effort, which--I support review and reform--being 
led by many members of this Committee, that we need to 
determine the constitutionality.
    Would you--because if it's not constitutional, that's it--
General Clapper, would you, consulting with the Department of 
Justice, the White House, ask for an expedited review by the 
Supreme Court of the United States to determine the 
constitutionality of these programs so that we don't 
continually shop for the legal opinion that we want, either one 
side or the other?
    Director Clapper. I'll discuss this with the Attorney 
General. I am not up on what the protocol is for us seeking a 
reading by the Supreme Court, but--
    Senator Mikulski. Is there a sense of urgency within the 
administration to seek such a constitutional determination?
    Director Clapper [continuing]. I think there's--well, I 
can't speak for the administration. I don't know. I would think 
there would be, since we, to your point, think throughout all 
of this and with all the controversy that we all felt, and 
still feel, that what we were doing was legal, was oversighted, 
both by all three branches of the government.
    There is a current court ruling on the Fourth Amendment 
ruling which, of course, if data is provided to a third party, 
it doesn't--
    Senator Mikulski. General Clapper, there are 36 different 
legal opinions.
    Director Clapper [continuing]. I realize that.
    Senator Mikulski. Thirty-six say the program is 
constitutional.
    Director Clapper. And--
    Senator Mikulski. Judge Leon said it's not. I'm not a--
    Director Clapper [continuing]. Nor are we.
    Senator Mikulski [continuing]. And I respect the appeals 
process, but I think we've got to get a constitutional ruling 
on this as quickly as possible.
    I think the American people are entitled to knowing that, 
and I think the men and women who work at NSA need to know 
that. And I think those of you who want final review on reform 
need to know that.
    Director Clapper. I couldn't agree with you more about the 
need for clarity on these issues for the women and men of the 
Intelligence Community who are trying to do the right thing.
    Senator Mikulski. Now, I would like to come to 
cybersecurity. And Director Comey, as you know, Target's been 
hit, Neiman Marcus has been hit, Michael's, who knows what 
else.
    What I find is in the public's mind there's confusion now 
between cybersecurity and surveillance. They've kind of 
comingled these words, but my question to you is two things.
    Is the impact of the Snowden affair slowing us down in our 
work to be more aggressive in the cybersecurity area, 
particularly as it relates to American people, identity, the 
safety of their credit cards, our grid, et cetera?
    And has the failure of us to pass cybersecurity regulatory 
efforts really aided and abetted these--has been a contributing 
factor to the fact that international prime is now targeting 
us?
    Director Comey. Thank you, Senator.
    With respect to the work being done by the men and women in 
law enforcement to respond to cyber threats, especially those 
around financial fraud and theft, we're working as hard as ever 
to try to address those threats.
    What the storm around surveillance and the leaks has done 
is just complicated the discussion about what tools we use to 
do that. So in that respect, it's made our life more 
complicated. I think that people need to realize there is 
threat of fraud and theft, because we've connected our entire 
lives to the Internet. And that's a place where we, using our 
law enforcement authorities, have to be able to respond 
robustly.
    Senator Mikulski. Do you think Congress needs to pass 
legislation in this area?
    Director Comey. Yes, I do.
    Senator Mikulski. Do you feel that there's an urgency 
around that and we should review those original legislation, 
even as a starting point for negotiation?
    Director Comey. There is. One of the critical parts of 
responding to cyber criminals is information sharing. The 
private sector sees the bad guys coming in. We need to make 
sure that the private sector understands the rules of the road 
and how they share that information with the government.
    Senator Mikulski. My time is up.
    I just want to say also, during the sequester and so on, I 
read these wonderful documents that came from voluntary 
organizations associated with the FBI. It was called, ``Voices 
from the field.'' They were quite poignant, and it shows that 
when they say with sequester they didn't want to exempt the 
feds, when our first line of defense, in many ways, is what we 
see at this table.
    So would you thank the agents for us?
    Director Comey. I will. Thank you, Senator.
    Chairman Feinstein. Senator Collins.
    Senator Collins. Thank you, Madam Chairman.
    General Flynn, thus far in the discussion today and in 
general, there has been very little focus on the damage that 
Edwin (sic) Snowden has done to our military. I read the DIA 
assessment, and it is evident to me that most of the documents 
stolen by Mr. Snowden have nothing to do with the privacy 
rights and civil liberties of American citizens, or even the 
NSA collection programs.
    Indeed, these documents--and we've heard the number, 1.7 
million documents--are in many cases multipages. If you printed 
them all and stacked them, they would be more than three miles 
high.
    I say that to give the public more information about how 
extraordinarily extensive the documents that he stole were. And 
they don't just pertain to the NSA; they pertain to the entire 
Intelligence Community and include information about military 
intelligence, our defense capabilities, the defense industry.
    Now, you are the leader of military intelligence. You have 
also been deployed for extensive periods in Iraq. You know what 
the impact is on the military.
    Could you share with the Committee your assessment of the 
impact that the damage that Edward Snowden has done to our 
military? And in particular, has he placed our men and women in 
uniform at greater risk?
    Lt. General Flynn. Senator Collins, thanks for that 
question. And on the report that you're--you're indicating or 
highlighting, we do have a--I believe a session in about a week 
for this Committee to go through the entire report.
    The--the strongest--the strongest word that I can use to 
describe, you know, how bad this is, this has caused grave 
damage to our national security. I think another way to 
address, you know, your question is, you know, what is--what 
are the costs that we are going to incur because of the scale 
and the scope of what has been taken by Snowden.
    And I won't put a dollar figure, but I know that the scale 
or the cost to our nation, you know, obviously in treasure, in 
capabilities that are going to have to be examined, reexamined 
and potentially adjusted. But I think that the greatest cost 
that is unknown today, but we will likely face is the cost in 
human lives on tomorrow's battlefield or in some place where we 
will put our military forces, you know, when we ask them to go 
into harm's way. And I think that's the greatest cost that we 
face with the disclosures that have been presented so far.
    And like I said, the strongest word that I can use is this 
has caused grave damage to our national security.
    Senator Collins. So it has caused grave damage to our 
national security. And you would agree that it puts at risk 
potentially the lives of our troops. Is that accurate?
    Lt. General Flynn. Yes--yes, ma'am.
    Senator Collins. Thank you.
    Mr. Olsen, it's good to see you again. We've worked 
extensively when I was on the Homeland Security Committee. I 
want to turn to the impact of the Snowden leaks on our nation's 
ability to connect the dots and to protect our citizens from 
terrorism attacks.
    You addressed this issue at a recent conference. Have you 
seen terrorist groups change their methods as a direct result 
of the disclosures of the stolen documents that Mr. Snowden 
has?
    Director Olsen. Senator Collins, the answer to that is yes. 
As we've been discussing, the terrorist landscape has become 
increasingly complex. We've seen the geographic diffusion of 
groups and networks. And that places a premium on our ability 
to monitor communications. And what we've seen in the last six 
to eight months is an awareness by these groups, and they're 
increasingly sophisticated, an awareness of our ability to 
monitor communications and specific instances where they've 
changed the ways in which they communicate, to avoid being 
surveilled or being subject to our surveillance tactics.
    Senator Collins. And obviously that puts us at greater risk 
of an attack.
    Director Olsen. It certainly puts us at risk of missing 
something that we are trying to see, which could lead to 
putting us at risk of an attack, yes.
    Senator Collins. And just to quote you back to yourself, 
you said, ``This is not an exaggeration; this is a fact.'' And 
you stand by that.
    Director Olsen. I absolutely do, yes.
    Senator Collins. Thank you, Madam Chairman.
    Chairman Feinstein. Senator Warner.
    Senator Warner. Thank you, Madam Chairman.
    And I want to start actually picking up with what Senator 
Mikulski said. And I think most of us have made these comments, 
at least at the outset, even if some of our colleagues have 
very distinct policy differences, which is we need to be, I 
think, continue to express our support for the men and women of 
the Intelligence Community who do these jobs in thankless 
ways--and in dangerous ways.
    And they have been under challenge, with concerns about the 
NSA programs, the Snowden affair, the effects of sequestration. 
And they're disproportionately, perhaps, in Virginia and 
Maryland, but they're all across the country.
    And I know, Director Clapper, we've talked about ways to 
try to get them some of the recognition. They're not often 
recognized in State of the Union addresses, but I hope that 
we'll continue to find ways that we can, during these tight and 
challenging times, affirm the very extraordinary work that 
these men and women do protecting our country.
    I want to take a moment, Director Clapper, again, following 
up on what Senator Mikulski raised, I think the challenges 
around cyber terrorism and cyber threats grow dramatically. We 
now know the public report that (inaudible) put out a year ago 
about challenges disproportionately coming out of China and 
Russia.
    I believe you stated last year that you thought that the 
effect of cyber attacks on America were estimated to cost close 
to $300 billion in economic damage, that damage in terms of 
direct attack.
    But I also think we see time and again cases where 
intellectual property is taken and competitors are able to 
enter into the marketplace basically leapfrogging over the 
whole R&D step because they steal our intellectual capital.
    We now have seen, I know, a series of committees, including 
my banking subcommittee, have been looking at the--some of the 
data breaches that at we're talking now at 70 million potential 
loss of data--personal data information just with Target alone. 
And (inaudible) disproportionately was ill-equipped.
    I think this is an indication, though, that, industry by 
industry, these attackers can find the weakest link. And even 
companies that are doing the right things; if their colleagues 
in the industry are not keeping up to standards, there is a 
challenge.
    Do you have any sense of--or would you or anybody else on 
the panel care to kind of reposit a new number or a different 
number or a higher number in terms of the economic threat, the 
intellectual capital threat, and obviously the personal 
information threat posed by these cyber activists?
    Director Clapper. Senator, I think it's almost incalculable 
to tote up what the potential costs may be. This starts from 
the sheer difficulty of ascribing value to intellectual 
property, particularly over time. So, the potential dollar 
value is inestimable if you consider it in its totality.
    So no, I really can't give you a good number, and we'd have 
a hard time coming up with one. Whatever it is, it's big.
    Senator Warner. Anybody else want to add a comment?
    I guess the question I would also have, kind of continuing 
down this lane, though, is that I, as someone that came from 
the IT and telecom sector, I get the concern about additional 
government regulatory burdens, but--and how you set it, an 
appropriate standard, something that also is fluid as this 
field is. But my gosh, not having some standards, not having, 
again, for the good actors, some safe harbor, seems to me to be 
a real economic challenge.
    And I guess one of the questions I would have for you, in 
light of the data breaches at Target, Neiman Marcus, now we 
hear Michael's and others, you know, what does it say about the 
ability of the private sector to keep its data secure?
    Director Clapper. Well, this is a great concern to all of 
us. And to Senator Mikulski's point earlier when this was 
discussed a year ago or so, and there was a lot of discussion 
and debate in the Congress about the need for some cyber 
legislation.
    There has to be, in my view--and I'll ask others to speak 
to this--a partnership between the government and the private 
sector, understanding the concerns about burdens being placed, 
regulatory burdens and all that sort of thing that could be 
placed on the private sector.
    But the government cannot do all this by itself. The 
private sector, particularly if you're, you know, have a 
concern about the piece of this that I am, which are foreign 
nation states, principally China and Russia, which represent 
the most sophisticated cyber capabilities against us.
    And then, you know, the litany of other potential threats--
be they nonstate actors, activists, criminal, whether foreign 
or domestic.
    And we need--the civilian sector is kind of our do line, if 
you will, or our first line of defense. So there--in my 
opinion, there needs to be some way where we can depend on that 
sector to report to us, to enable the government to help them. 
I'd ask Director Comey to speak to this as well.
    Director Comey. And, Senator, that's what I meant, to 
responding to Senator Mikulski about some of the work we have 
to do to protect the American people in this area, getting all 
tangled up in controversy around surveillance.
    Without the cooperation of the private sector, I think of 
us as--we're patrolling a street with 50-foot-high walls. We 
can see that the street is safe. But we're of no use to the 
folks who need help behind the walls in those neighborhoods.
    So we have to find a way for them to tell us what's going 
on and us to tell them what's going on in order to protect the 
American people. But it gets caught up in this swirl around, 
oh, my goodness, the government wants private people to 
cooperate.
    We really do. But we want to do it through clear, lawful 
guidelines and rules of the road to make those communities 
safer on the street and in the neighborhoods.
    Senator Warner. I know my time is up, and I concur with you 
in trying to get this collaboration, and information sharing is 
so critical. And I think, again, the challenge that these 
retailers saw in terms of them, when do they cross that line to 
report to the public? Because I think if the public had a full 
understanding of how often and how many firms are under daily 
assault, it would, you know, maybe even make pale about some 
other concerns they have about some of the other activities 
going on. This is a thorny area that's evolving day to day. 
And, again, I hope the Congress comes back and revisits it.
    Thank you, Madam Chair.
    Chairman Feinstein. Thanks, Senator Warner.
    Senator Rockefeller.
    Senator Rockefeller. Thank you, Madam Chair.
    I'm going to make a statement. I'm not going to ask a 
question. I'll wait for second round. There's something I feel 
so strongly about I have to make this statement.
    The president announced that Section 215 telephony metadata 
should no longer be stored by the government and he asks the 
director of national intelligence to work with the Attorney 
General to come up with alternative options.
    Ultimately the decision rests with Congress and this 
Senator absolutely opposes contracting out this inherently core 
governmental function.
    What seems to be lost in this conversation is that every 
day we face a growing and evolving threat from multiple enemies 
that could cost American lives. The terrorist threat remains 
real and ongoing. The government's ability to quickly assess 
the data has protected Americans from terrorist attack.
    The hard fact is that our national security interests do 
not change just because public opinion on issues fluctuates. 
The collection and querying of this metadata is not a private 
sector responsibility. It is a fundamental core government 
function and should remain that way.
    I'm concerned that any change of our current framework 
would harm both our national security and privacy.
    While the President has made it clear that he understands 
our intelligence need for this data and that we should keep 
collecting, I do not believe that he came up with a better 
alternative. In fact, he just threw it to you, and ultimately, 
to us.
    Here is why: Practically, we do not have the technical 
capacity to do this. And certainly it's impossible to do so 
without the possibility of massive mistakes or catastrophic 
privacy violations.
    There are hundreds and hundreds of telecommunication 
companies in this country. They each have their own 
initiatives. So you can't just talk about one or two big ones. 
They're all--they got niches. They're all going to have to go 
into this protocol.
    Prospects are just daunting and, to me, ridiculous. They do 
not want to become agents of the government. They do not want 
to become the government's guardians of a vast amount of 
intelligence data. They stress that.
    The telecom providers themselves do not want to do this, 
and for good reason. Telecom companies do not take an oath of 
allegiance to protect domestically and internationally.
    Small matter? No, it isn't. It's a big matter. They are 
neither counterterrorist agencies nor privacy protection 
organizations. They are businesses. They are interested in the 
bottom line. And they are focused on rewarding their 
shareholders, not protecting privacy or national security.
    I have served on the Commerce Committee for 30 years and I 
know the telephone companies sometimes make empty promises 
about consumer protection and transparency.
    I've been through many iterations of this and it's not 
happy. Corporations' core profit motives can and sometimes have 
trumped their holding to their own public commitments.
    My concerns about private providers retaining this data for 
national security purposes are only heightened by the advent of 
the multi-billion-dollar data broker industry that mines troves 
of data, including telephone numbers, which it uses to 
determine our most personal inclinations.
    One data broker holds as much as 75,000 different data 
points about each one of us, including our health and financial 
status. This is staggering.
    Further involving the telecom providers in the extended 
storage of this data for intelligence purposes would not only 
make the data subject to discovery in civil lawsuits but it 
would also make it more vulnerable to theft by hackers or 
foreign intelligence organizations, another powerful reason to 
be against private companies taking responsibility for an 
inherently government function, core government function.
    Additionally Target's recent loss of 110 million American 
consumers' personal information hackers--to hackers does not 
reassure me at all that moving this sensitive data to the 
private sector for intelligence purposes would adequately 
protect its consumers' privacy.
    Moving this data weighs in a stringent audits and oversight 
mechanism that this Committee has worked over the years to put 
in place and now has added on 20 more amendments to do more.
    It makes it less vulnerable to abuse. And I want to 
reiterate, the team--the telecom providers want no part of it. 
They say so; they never have. They didn't under FISA, but they 
had to.
    Blanket liability probably did the trick but that's a very 
different situation. This is not a foundation for a good 
partnership.
    In fact, for context, under the existing system there are 
only 22 supervisors in the intelligence directorate, highly 
trained and skilled, and 33 intelligence analysts who work 
specifically in the intelligence directorate.
    These are professionals. They've spent their careers 
preparing to do this job and to do it well. They work in an 
extremely controlled environment with anonymized data. Their 
queries are subject to multiple overlapping checks, audits and 
inspections, and keeping in mind that these queries involve 
only anonymous numbers, no name, no content, no location, 
unlike many private companies, no-one is listening to your 
private conversations or reading your e-mail.
    The data is highly secure. It's secure. And the queries of 
the data are conducted only by highly trained professionals, 
which the telecom companies do not have and could not be 
trained to have for a very long period of time, plus they don't 
want any part of it.
    Last year this Committee worked to significantly strengthen 
215 oversight with the adoptions of 20 major reforms, making 
the telecom providers keep the metadata for intelligence 
purposes where it will be needed to be searched, or introduced 
a whole new range of privacy and security concerns.
    I think going down this path will threaten, not strengthen, 
our ability to protect this country and the American people 
from a terrorist attack and massive invasions of their privacy.
    OK. I used my time. But I can't tell you how strongly I 
feel about this.
    The President left us in a very interesting position. He 
said, I want to keep collecting. I want to keep collecting. But 
I don't want the--I don't want the government to maintain--NSA 
to maintain the metadata.
    And then he started talking about another entity, private 
entity. I think we all agree long hence that that's an 
impossibility, not yet created, no experience, does not exist.
    So what does that leave? That leaves the telecommunications 
companies and they don't want it. And they shouldn't have it, 
in the interest of national security.
    Thank you, Madam Chair.
    Chairman Feinstein. Thank you very much for that, Senator 
Rockefeller.
    I would like to point out, so the public knows, Senator 
Rockefeller is chairman of the Commerce Committee and, in my 
view, he knows what he's talking about.
    Chairman Feinstein. Senator Burr.
    Senator Burr. Thank you, Chairman.
    Gentlemen, welcome. Thank you for what you do day-in and 
day-out. And thank your colleagues for us. As the vice chairman 
said, he and I had the opportunity to be in Afghanistan for 
part of last week and we met with many people who work for you 
and are doing a great job in a very challenging and difficult 
area of the world, and we're grateful for that.
    Director Clapper, over the last several years, the 
committee's had some difficulty receiving timely briefings 
after significant events or terrorist attacks, despite the 
commitment we had from you that those briefings would happen 
within 24 hours.
    Moving forward, will you renew your commitment to the 
Committee to brief us on those events in a timely fashion?
    Director Clapper. Yes, sir. We always strive to do that.
    Senator Burr. Director Olsen, without getting into 
sensitive sources and methods, how would you characterize the 
intelligence community's ability to provide tactical warnings 
of terrorist attacks that are on U.S. interests?
    Director Olsen. It's a complicated question. I mean, 
obviously it's a focus of ours to be able to provide that level 
of tactical warning. As we've discussed, the nature of the 
threat has become significantly more geographically spread out. 
And that challenges the Community in collecting the kinds of 
information that would provide that type of tactical warning.
    And we've seen the types of smaller-scale attacks, 
particularly on soft targets. I think, for example, of the 
attack at the Westgate Mall in Nairobi. That type of attack, 
using small arms, a small number of individuals, puts a great 
deal of pressure on us in order to provide the type of tactical 
warning that would save lives under those circumstances.
    So it's a focus of ours. We have increased our cooperation 
and interaction in particular with the State Department and 
diplomatic security as a community. We come together as a 
community to do that. But as I've said, it's difficult to 
provide the level of tactical warning that would provide, you 
know, the advance warning necessary to preserve lives under 
those circumstances.
    Senator Burr. Thank you.
    Director Brennan, without getting into sensitive sources 
and methods, how would you assess the counterintelligence 
capabilities of al-Qaeda and its affiliates?
    Director Brennan. Increasingly good. And unfortunately, I 
think they just have to pick up the papers sometimes or do some 
Google searches for what has been disclosed and leaked. And 
they really go to school on that. And they adapt their 
practices accordingly. And they take steps to protect their 
ability to communicate, to move and to operate.
    And so, we are giving them, I think, the substance for 
their counterintelligence programs.
    Senator Burr. Thank you.
    Director Comey, can you assure this Committee, the Congress 
and the American people that the FBI has and will continue to 
pursue the individuals who killed four Americans in Benghazi?
    Director Comey. Absolutely, Senator, you have that 
commitment. It remains one of our very top priorities. I have a 
lot of people working very hard on it right now.
    Senator Burr. We realize that the ability to share actions 
that the bureau might have taken in this case are limited. But 
I think I speak for the entire Committee that anytime we can be 
briefed on progress, I hope you will do so.
    Director Comey. Yes, sir.
    Senator Burr. General Flynn, when I saw one of my 
colleagues ask about cybersecurity, it seemed like you had 
something you wanted to contribute to that. Let me give you 
this opportunity, because I think you're in a unique position 
to comment on it.
    Lt. General Flynn. Well, I would just offer on 
cybersecurity, one of the other aspects, you know, Director 
Clapper mentioned state actors. I think that what is a serious 
threat that we are paying very close attention to are these 
non-nation-state groups and actors, al-Qaeda being among them, 
as one organization among many others, are what I would just 
describe as in the transnational organized criminal elements 
that are also operating in the cyber domain. And they have no 
rules that they have to adhere to. And they are increasingly 
adapting to an environment that is actually benefiting them.
    And so I think that we--while we definitely need to pay 
attention to those nation-states that have, you know, that in 
some cases have parity with us, we also have to pay very close 
attention to the non-nation-state actors that are out there 
that are doing things like we see--that have already been 
described here today. And that, to me, is an increasingly 
growing threat.
    Senator Burr. Great. I thank, once again, all of you for 
your willingness to be here.
    I thank the chairman, and yield the time.
    Chairman Feinstein. Thank you, Senator Burr.
    Senator King.
    Senator King. Thank you, Madam Chairman.
    Director Clapper, do you have an intelligence assessment of 
the impact of the interim agreement on Iran's nuclear program? 
Does it slow it down, pause it? The requirements, as you know, 
about dilution and limitations of centrifuges and those kinds 
of things, is this going to have a real impact on the progress 
of nuclear capability in Iran?
    Director Clapper. Yes, it will, Senator King. Clearly, it 
gets at the key thing we're interested in and most concerned 
about is the more highly enriched uranium--the 20 percent 
enriched uranium. So, yes, it does.
    Senator King. Second question. You told us back on the 
20th, quote, ``We judge that the new--that new sanctions would 
undermine the prospects of a successful comprehensive nuclear 
agreement with Iran.'' Iranian Foreign Minister Zarif in early 
December said that the entire deal would be, quote, ``dead'' if 
the international community imposed new sanctions.
    Is that still your view?
    Director Clapper. Yes, sir. It would be good to have them 
in reserve if we need them, but I think right now the 
imposition of more sanctions would be counterproductive.
    Senator King. How do you mean ``in reserve''? If the 
Congress passed them, would you consider--
    Director Clapper. Well, obviously, the Iranians understand 
our system. And the point there is that if the--if we had 
additional sanctions right now, I think this would, you know, 
the Iranians would live up to their word and it would 
jeopardize the agreement. But they understand that this is a 
subject of great interest in the U.S. Congress. And to me, just 
that fact alone is a great incentive to ensure compliance with 
the bargain.
    Senator King [continuing]. So what you're suggesting is we 
don't need new sanctions. Even those that have a delayed 
trigger, it's the knowledge that Congress can impose them that 
provides the impetus.
    Director Clapper. That would be my view, yes, sir.
    Senator King. Thank you.
    Another question for you, Director Clapper. There have been 
suggestions from outside groups, and we hear it all the time, 
that section 215 really doesn't produce anything useful. And 
we've had testimony about plots thwarted. In order for us to 
assess this difficult issue, which as Senator Rockefeller 
pointed out, the President sort of tossed back in our laps.
    On the one hand, we want to weigh national security 
concerns and the importance and significance of the program, 
against privacy rights and the concerns of the public about 
having large amounts of telephony--telephonic data in the 
government's hands.
    Is the program effective? Does it make a difference? Is it 
an important tool? Or is it just something that's nice to have?
    Director Clapper. I think it's an important tool. And I 
also think, and I said this before, that simply using the 
metric of plots foiled is not necessarily a way to get at the 
value of the program. What it does is allows us to eliminate 
the possibility of a terrorist nexus in a domestic context.
    So, for example, last summer when I think 20 or so 
diplomatic facilities in the Mideast were closed because of 
various threat conditions, and in the course of that we came 
across nine selectors that pointed--indicated--pointed to the 
United States. So the use of this tool, of the 215 tool, 
enabled us to quickly eliminate the possibility of a domestic 
nexus. So, to me, that's another important way of considering 
the value of the 215 program.
    Senator King. Director Comey, do you have views on the 
significance of 215? You understand that this is not easy for 
this Committee. The public is very skeptical. And in order for 
us to continue to maintain it, we have to be convinced that it 
is in fact effective and not just something that the 
Intelligence Community thinks is nice to have in their toolkit.
    Director Comey. Yes, I totally understand people's concerns 
and questions about them. They're reasonable questions. I 
believe it's a useful tool. For the FBI, its primary value is 
agility. That is, it allows us to do in minutes what would 
otherwise take us hours. And I'll explain what I mean by that.
    If a terrorist is identified in the United States or 
something blows up in the United States, we want to understand, 
OK, is there a network that we're facing here? And we take any 
telephone numbers connected to that terrorist, that attack.
    And what I would do in the absence of 215, is use the legal 
process that we use every day, either grand jury subpoenas or 
national security letters. And by subpoenaing each of the 
telephone companies I would assemble a picture of whether 
there's a network connected to that terrorist.
    That would take hours. What this tool allows us to do is do 
that in minutes. Now, in most circumstances the difference 
between hours and minutes isn't gonna be material, except when 
it matters most.
    And so, it's a useful tool to me because of the agility it 
offers. And so, I think it's a healthy discussion to discuss, 
so what might replace it and how would we change it?
    I would just want folks to understand what the trade-offs 
would be in any diminution in that agility. But that's where it 
matters most to the FBI.
    Senator King. Thank you.
    Thank you, Madam Chair.
    Chairman Feinstein. Thank you. That's very helpful to the 
dialogue. Thank you very much, Senator King.
    Senator Risch.
    Senator Risch. Thank you, Madam Chairman.
    Director Clapper, I want to compliment you for how you put 
together your statement here in putting cybersecurity at the 
top. This is the one open hearing we have every year. And those 
of us sitting in this panel spend most of a couple afternoons a 
week going through this stuff.
    I think the American public really does not have an 
understanding of how important this threat is. I notice you put 
it ahead of terrorism. You put it ahead of weapons of mass 
destruction. You put it ahead of proliferation. And I think you 
wisely did that.
    You said that the industrial control systems and 
supervisory control and data acquisition systems used in water 
management, oil and gas pipelines, electrical power 
distribution and mass transit provides an enticing target to 
malicious actors.
    And I couldn't agree with you more, except I think that 
that is a real understatement of what the situation is out 
there. Certainly they are attractive targets.
    But, more importantly than that, we've got chinks in our 
armor, as you know. And although we do our best with firewalls 
and what have you, this is something we've got to get more 
diligent at.
    I bring this up because in my state, in Idaho Falls, Idaho, 
at the Idaho National Laboratory, there's nobody doing more on 
supervisory control and data acquisition matters. And we also 
have the isolatable transmission and distribution system we 
call the loop, and a very important wireless test bed, national 
user facility at the Idaho National Laboratory.
    The problem I have is this. I've spent a lot of time there. 
I've spent a lot of time with the people there. And they are 
grossly underfunded in what they're doing.
    Now, that's true in all areas of government spending, and 
we're all under tremendous pressure. I know that. Everybody in 
this room knows that. And there's no bigger advocate for 
cutting than I am.
    But, inasmuch as you have put this at the top of your 
priorities, what I would urge you to do is review our 
priorities of spending and look at these particular operations 
at the Idaho National Laboratory. They're doing a lot of good 
work in this. And this is an area that we truly do need to be 
more vigilant on.
    And it's unfortunate that Americans can't hear the kinds of 
things that we hear that are really quite frightening as far as 
what the possibilities are if we are subject to a cyber attack 
in this and many other areas.
    So I'd urge you to consider that, Director Clapper, and 
appreciate your bringing this to the forefront and to the 
focus.
    Director Clapper. Senator, thanks very much for that. It 
gives me a chance to say something about the entirety of the 
DOE lab complex, which is a phenomenal contributor to U.S. 
national intelligence.
    It has unique expertise, unique technical competence that 
is unmatched anywhere else in the Intelligence Community. 
That's something I've been working with the DOE headquarters to 
try to rationalize the way in which we convey funding from the 
national intelligence program to all the labs. So, I'm very 
sensitive to that, and I appreciate you bringing it up.
    Senator Risch. Thank you, Director Clapper. We appreciate 
that also. And I think the American people will appreciate 
that, even though they don't, and really can't know the details 
of it.
    Director Brennan and Director Flynn, these next remarks are 
directed to you. I have a constituent, Sergeant Beau Bergdahl, 
who's being held captive. And I want to publicly thank you for 
the exchanges, the information and the frequent interchange 
between both myself and your office and my staff and your 
office staff.
    It's impossible to sit here and convey to you what this 
family is going through. We all say we can't understand, and we 
really can't.
    And, obviously, without getting into the classified 
material or saying something unintentionally that would impact 
his safety, I think we'd go a long ways to helping his family 
have some peace if you would reiterate publicly, as you have to 
me privately, about what a high area of concern this is for the 
United States government to return Sergeant Beau Bergdahl to us 
personally.
    Lt. General Flynn. Yes. And Senator, thanks. Thanks for 
reminding the American public about Beau and his plight right 
now.
    I would tell you that every soldier that we have on the 
battlefield that is in a situation like that is--becomes our 
number one priority. There are, 24 hours a day, seven days a 
week, there are dedicated resources to doing everything we can 
to bring him home safe and sound.
    And I would just say to the family, I can't imagine what 
they go through, but they have our absolute commitment from 
the--all the leadership, and I know I can speak for this table 
here from the Intelligence Community, but definitely all the 
leadership inside of the Department of Defense to bring him 
home safe and sound.
    Senator Risch. Thank you, Director.
    Director Brennan.
    Director Brennan. Senator, I'd just say that when I was at 
the White House, I had the honor and privilege to meet with 
Sergeant Bergdahl's mother and father. It was a very moving 
experience.
    And I told them then that we would do everything possible 
to bring their son home safely. He is somebody who was on the 
front lines, keeping this country safe. And I know that we are 
doing that on a regular basis. And so we--our thoughts and 
prayers are with the family as well as with Sergeant Bergdahl.
    Senator Risch. Thank you from the bottom of our hearts for 
your efforts in that regard.
    Chairman Feinstein. Thanks, Senator Risch.
    Senator Rubio.
    Senator Rubio. Thank you.
    Thank you all for being here today.
    I wanted to touch on something that was actually touched 
upon last night in the State of the Union and may have been 
addressed earlier before I came.
    And it's this; on the one hand we keep hearing how the core 
of al-Qaeda has been significantly degraded, particularly in 
its presence in the FATA, et cetera, and in Afghanistan before 
that.
    But on the other hand, we see that their power is now 
growing in a diffuse way. We see it in North Africa, Lebanon, 
Syria, Iraq. And, of course, there's still a presence in 
Afghanistan and Pakistan. There's the concern about fighters 
from Syria returning to Europe and other countries.
    Isn't this diffusion of their presence and power, isn't 
this an even bigger and more complex challenge than when they 
were, than when their core was centralized in one place?
    Director Clapper. Senator, let me start. Senator Rubio, 
actually, it is, because of the dispersal and the growth of the 
so-called franchises into many other areas of the world; much 
more globally dispersed.
    That, plus the fact that, as we've also discussed here 
today, they've gone to school us on how we try to track them. 
So the combination of those factors, the geographic dispersal 
and the increasing challenges in collecting against them, makes 
al-Qaeda, in all of its forms, a very--in total, a very 
formidable threat.
    Matt.
    Director Olsen. Senator, yes, I agree wholeheartedly with 
Director Clapper.
    I think it is important to think about the threat in a 
number of different ways. So there is a group core al-Qaeda. 
And, as the President said last night, that group is on the 
path to defeat. That is the group that brought forward 9/11, 
led by Zawahiri.
    Operationally, that group is not what it was 10 years ago. 
It is the ideological leader of a movement that has spread. And 
that movement has spread both in terms of the geographic 
presence in a number of different countries across the Middle 
East and North Africa.
    It's spread in terms of the diversity of actors. A number 
of those actors have a largely local or regional agenda. In 
other words, they don't necessarily pose a threat to us here at 
home, at least not now.
    And it's also changed in the way Director Clapper has said, 
in that they've innovated and they've--sought out ways to carry 
out attacks that are not as complicated, that--and they've 
promoted the idea of lone attacks or smaller-scale attacks that 
would be harder for us to detect.
    So, in all of those ways, it's a more complicated and more 
challenging threat.
    Senator Rubio. Thank you.
    The second issue I wanted to focus on that really bothers 
me sometimes is these romanticized notions about who Edward 
Snowden is and what he's done to this country.
    You know, all the reporting's been centered on things we've 
read in the papers about the 215 programs, but his revelations 
go far beyond that.
    Is it safe to say that he has not just compromised 
operations, but there are Americans and allies who are at risk 
because of the actions of this individual?
    Director Clapper. Absolutely, sir. That's--yes.
    Senator Rubio. And, is it also safe to say that General 
Flynn, I would ask you this. Are there men and women in uniform 
who are potentially in harm's way because of what this 
individual has done?
    Lt. General Flynn. Senator, I believe there are.
    Senator Rubio. All right.
    Is it safe to say that the revelations that he has made, 
what this individual has done is perhaps the gravest violation 
and most significant, most harmful revelation of American 
intelligence secrets in our history?
    Lt. General Flynn. Yes, sir. As I stated at the outset, 
that's how I would characterize it.
    Senator Rubio. I wanted to ask you quickly about Asia.
    I just returned from a trip to Japan. I know that they've 
recently made changes to their intelligence--the laws governing 
their intelligence programs.
    Could you comment, whoever would be appropriate, briefly on 
how that's increased our ability to partner with them, and how 
you see the opportunities to more fully engage with the 
Japanese in intelligence sharing, given their increased 
capacity and the protections now afforded?
    Director Clapper. Yes, sir. I was aware of your visit and 
appreciate your engagement with some of our intel people.
    Senator Rubio. Are you following me? No, I'm kidding.
    Director Clapper. The Japanese are emerging as great 
partners. They--and the passage of this Secrets Protection 
Laws, as it's called, are going to do just as you inferred, 
enable us (sic) to do more sharing with us.
    We are in--have agreed on a recent--recently on an 
intelligence sharing arrangement where they will be sharing 
with us. I would be happy to go into more detail about this. 
But really emerging as great intelligence partners and this 
extends to the prime minister.
    Senator Rubio. Thank you.
    Chairman Feinstein. Thank you very much, Senator Rubio.
    That completes the round. It's my understanding that 
Members do not request a second round with one exception, and 
that is Senator Wyden, who would like to ask a ten-second 
question.
    Questions will be sent to the panel and hopefully, you will 
respond to them rather promptly.
    Your ten seconds are upon you.
    Senator Wyden. Thank you, Madam Chair. This is a request 
for the record. General Clapper, and it's apropos good point 
that Senator King meant. He asked you and General Comey whether 
bulk collection of all these phone records on law-abiding 
Americans were necessary to prevent terror, and you all said it 
was because of timeliness.
    As you know, the Independent Review Commission at page 104 
of their report said that was not the case. They could get the 
data in a timely way without collecting all of these millions 
of phone records on law-abiding Americans.
    So if you all would, for the record--and I've asked this as 
well before, give us an example of a time you need a record 
that was so old that the relevant phone company no longer had 
it.
    And I'm going to say, Mr. Director, I think that's 
possible, within 30 days, to have an answer to that. Since I've 
asked it repeatedly if there's some reason you can't do it, let 
me know.
    Thank you, Madam Chair.
    Chairman Feinstein. Thank you.
    And you had a long ten seconds. Be grateful.
    Ladies and gentlemen, thank you. And, gentlemen, thank you 
very much and the people that you represent. This Committee 
appreciates their service and your service.
    So the hearing is adjourned.
    [Whereupon, at 11:43 a.m., the Committee adjourned.]
                         Supplemental Material



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  

                                  <all>
</pre></body></html>
